  Audit of NARA's Processing of 

Military Personnel Record Requests 

       OIG Report No. 09-16 





        September 30, 2009 

                                                                              OIG Audit Report No. 09-16



EXECUTIVE SUMMARY
The National Personnel Records Center (NPRC) maintains the personnel and medical
records of nearly all former members ofthe U.S. military service departments who served
during the twentieth century. Approximately 80 percent ofthe records maintained by the
National Archives and Records Administration (NARA) are the property ofthe
Department of Defense, which reimburses NARA for storing and servicing the records.
The remaining 20 percent have been accessioned as permanent records of the United
States and are owned by NARA. In FY 2008, NARA's National Personnel Records
Center (NPRC) had military service records for more than 56 million veterans. These
records contained such documents as enlistment contracts, duty locations, performance
evaluations, award citations, training records, and the Report of Separation (DD Form
214 or earlier equivalent)l. NPRC responds to more than one million requests a year
from veterans and their family members for information contained in the Official Military
Personnel Files (OMPF).

For this audit, we assessed the management controls over the processing and distribution
of veterans' record requests. Specifically, our review focused on whether the process
was sufficient to properly safeguard veteran's information in accordance with the Privacy
Act.

Safeguarding PH in the possession of the government and preventing its breach are
essential to ensure the government retains the trust of the American pUblic. The Privacy
Act of 1974 required agencies to establish appropriate administrative, technical and
physical safeguards to ensure the security and confidentiality of records and to protect
against any anticipated threats or hazards to their security or integrity which could result
in substantial harm, embarrassment, inconvenience, or unfairness to any individual on
whom information is maintained.

We found that while NPRC has taken action to heighten the awareness of staff to
erroneous disclosures 2 of veteran's information, controls over the processing of veteran's
record requests need to be strengthened in order to properly safeguard veteran's PII.
NPRC relies on an automated case management system to track and process both
electronic and mail-based inquiries from receipt through fulfillment and closure. The
system has significantly reduced the amount of time it takes NPRC to respond to a
veteran's record request, however, vulnerabilities in the system leaves veteran's personal
information susceptible to unauthorized disclosure and jeopardizes the integrity ofthe
information stored in the system. We also found that additional safeguards are needed in
order to protect veteran's PH in paper form and to ensure that persons requesting access
to records have the proper authorization to obtain those records.



1 The Report of Separation contains information such as dates and character of service, fmal rank, awards 

earned, and military occupation specialty. It is a key to obtaining veteran's benefits such as home loans, 

civil service appointments, education, training, and medical care. 

2 According to NPRC, an erroneous disclosure happens when a technician dispatches a response without 

properly verifying that the subject of the record matches the subject of the request or when a technician 

inadvertently switches response documents among service requests assigned to them. 


                                               Page 1
                            National Archives and Records Administration
                                                                      DIG Audit Report No. 09-16


This report contains 14 recommendations which upon implementation will assist NARA
in providing appropriate administrative, technical, and physical safeguards over PH as
required by the Privacy Act.




                                          Page 2
                       National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


BACKGROUND
The National Personnel Records Center (NPRC) maintains the personnel and medical
records of nearly all former members ofthe U.S. military service departments who served
during the twentieth century, and responds to requests for these records. Most of the
records maintained by NARA are the property ofthe Department of Defense (DoD),
which reimburses NARA for storing and servicing the records. In 2004, DOD and the
Archivist of the United States signed an agreement making the Official Military
Personnel File (OMPF) a permanent record ofthe United States. In subsequent
agreements, it was decided that an OMPF becomes archival and ownership transfers from
DoD to NARA 62 years after the subject of the record was discharged or retired, or died
.       .
III servIce.


NPRC receives approximately 4,000 requests per day about OMPF. Many of these
requests come from veterans, their families, or organizations working on behalf of
veterans to verify their military service, apply for benefits, or research medical
conditions. More than 40 percent of the requests received ask for only a copy of the
separation document, the DD Form 214 or its predecessor forms which contains
important information such as dates and character of service, final rank, awards earned,
and military occupation specialty. Other popular requests are to obtain copies of health
records, replacement or newly authorized service medals, records of one's own (or a
family member's) military service, and verification for entitlement for burial in a national
cemetery. NPRC responds to more than one million requests a year and strives to answer
all requests within 10 working days because a veteran's ability to obtain ajob, housing,
or medical care often depends on NPRC's ability to meet information needs quickly.

Federal law requires that all requests for records and information be submitted in writing.
Each request must be signed (in cursive) and dated within the last year. To request
military service records, veterans and the next of kin of deceased veterans may use one of
the following methods:

    •   fill out an online request (using eVetRecs system);
    •   mail or fax a Standard Form 180;
    •   write a letter;
    •   visit NPRC; or
    •   hire an independent researcher.

In the FY 2008 Assurance Statement, NPRC officials reported they had increased their
emphasis on protecting personal data but there were still 196 erroneous disclosures.
According to NPRC officials, they take erroneous disclosures very seriously and when
reported, will examine the circumstances surrounding the erroneous disclosure. When
carelessness is determined to be the root cause, the erroneous disclosure is addressed with
disciplinary actions. NPRC officials conducted a standardization review in FY 2008
which observed core technicians at work to determine their level of compliance with
several critical tasks. The critical tasks were identified as actions that, if not taken, would
have an extremely high likelihood of violating the Privacy Act, damaging record
holdings, reducing the availability of essential documents, or providing a poor quality

                                           Page 3
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


response to the requester. An example of one critical task is that the technicians maintain
only one record at a time in their immediate work area which would help correct the
problem of technicians accidentally switching response documents among service
requests assigned to them.

Safeguarding ofPII is important to protect individuals, maintain public trust and
confidence in an organization, protect the reputation of an organization and protect
against legal liability for an organization. For Federal government agencies, the need to
protect PII was first established by the Privacy Act of 1974. The Privacy Act required
agencies to protect PII and to establish appropriate administrative, technical and physical
safeguards to ensure the security and confidentiality or records and to protect against any
anticipated threats or hazards to their security or integrity which could result in
substantial harm, embarrassment, inconvenience, or unfairness to any individual on
whom information is maintained.

OJECTIVE, SCOPE, METHODOLOGY

The objective ofthis audit was to assess the management controls over the processing
and distribution of veterans' record requests. Specifically, we determined whether the
process was sufficient to properly safeguard veteran's information in accordance with the
Privacy Act and OMB policies.

The audit was conducted at the National Personnel Records Center (NPRC) in St. Louis,
MO and at Archives II in College Park, MD, primarily with the Office of Regional
Record Services (NR) and the Office of Information Services (NH). We also contacted
the Acquisition Services Division (NAA) and the General Counsel's Office (NGC).

In support of the audit objective, we reviewed the Privacy Act of 1974 and OMB policy
memorandums on safeguarding PII. We also reviewed NARA policy and procedures for
releasing veteran records. We evaluated controls over the receipt of military personnel
record requests, the processing of those requests, and the distribution of the requested
information to ensure privacy information was not released to unauthorized individuals.
We evaluated controls in the Case Management and Reporting System (CMRS) to
determine whether the controls were reasonable to protect the confidentiality of data
against such risks as unauthorized access, modification, or disclosure of data. We also
reviewed additional physical security controls in place to protect veteran's privacy
information.

We interviewed NPRC officials, observed the process of receiving military personnel
record requests and responding to those requests, examined technical and operational
controls in the Case Management and Reporting System, and reviewed pertinent
documentation to determine whether veteran's information is appropriately safeguarded.

Our audit work was performed between January 2009 and August 2009. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and


                                           Page 4
                        National Archives and Records Administration
                                                                      OIG Audit Report No. 09-16


conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                          Page 5
                       National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


FINDINGS AND RECOMMENDATIONS

     Controls over Information in the Case Management and Reporting System

Our review found that controls over information in CMRS were not adequate to
safeguard the confidentiality ofPII or the integrity of the information stored in the
system. Specifically weaknesses exist in access controls, controls over data extracts
containing sensitive PII, the protection of data stored on mobile devices, and the type of
encryption used for remote access to the system. These weaknesses exist because NPRC
officials, as the system owner, did not implement effective controls. The Privacy Act of
1974 requires NARA to maintain appropriate safeguards over the PII data stored in the
system. As a result, NARA faces an increased risk of inappropriate disclosure ofPII or
destruction to the data in CMRS.

According to the Privacy Act of 1974, each agency that maintains a system of records
shall establish appropriate administrative, technical and physical safeguards to assure the
security and confidentiality of records and to protect against any anticipated threats or
hazards to their security or integrity which could result in substantial harm,
embarrassment, inconvenience, or unfairness to any individual on whom information is
maintained. NARA maintains a system of records for the automated CMRS and
therefore, is responsible for establishing appropriate controls to safeguard the
information.

Data Stored in the System

The CMRS database includes all record requests submitted to NPRC since the system
went into operation in October 2002. Therefore, over seven million record requests were
stored in the CMRS database. Although a records disposition schedule to delete requests
in the CMRS database was approved, NPRC officials did not follow the schedule and
saved all requests. According to OMB Memorandum 07-16, one way to reduce the risk
related to a data breach was to reduce the volume of collected and retained information to
the minimum necessary. Maintaining unnecessary record requests in the database
increases the potential damage that could be caused if a data breach were to occur since
each record request contains PII.

CMRS includes an online service request and record tracking database. This database
tracks and processes both electronic and mail-based inquiries from receipt through
fulfillment and closure. Upon receipt, new cases are input electronically and physical
documents are converted into digital images. Information entered into the system
includes the requester's name, address, and phone number as well as the veteran's full
name, social security number, date of birth, place of birth, and branch of service.
Figure 1 is a view of the CMRS service request input screen to demonstrate the
information entered into the system. While all personal information about the veteran
does not have to be filled in, requesters are encouraged to provide as much information as
possible in order to ensure the correct record is found. The CMRS database is archived
to keep a permanent transaction record of the service provided.



                                           Page 6
                        National Archives and Records Administration
                                                                                  OIG Audit Report No. 09-16




     .
 .
.

  ··. 



·· 


 ··· 


    ·.
. 





           Source: CMRS Concept of Operations

                                   Figure 1. CMRS Service Request Input

          As shown in Figure 1 above, the CMRS system contains all the information needed to
          steal a veteran's identity. For example, if a veteran were to request a copy of the records
          of their military service, the CMRS database would store their name, current address, and
          phone number in the Requester Information fields, and their social security number, date
          of birth and place of birth in the Veteran Information fields.

          According to the Records Disposition Schedule:

               • 	 Transaction data gathered and/or generated as the result of receiving and
                   processing a customer request (including name of requester, name of veteran
                   whose data is being requested, images of requester documentation, etc) should be
                   cut off at the end of each fiscal year and can be destroyed 5 years after the cutoff.

               • 	 Transaction data for access information (an extract of the live transaction data
                   including name of veteran whose data is being requested, date requested, name of
                   requester and associated records block) should be cut off at the end of each fiscal
                   year. Data associated with these requests are exported to a "record of disclosure
                   file" external to CMRS.

          According to an NPRC official, completed record requests have not been removed from
          CMRS because when working on cases, technicians often have to refer to previous
          cases. However, one technician interviewed stated they do not use earlier cases in CMRS

                                                      Page 7
                                   National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


because there is no way to search by case type to find how a similar request was
answered. In addition, the technician stated each record request is unique, and therefore
earlier cases would not be very useful. Another technician stated they refer back to
previous cases in CMRS only when the case assigned is coded by CMRS as a duplicate.
In those instances, the technician stated they would review the prior case to determine
why another request was submitted.

A breach or loss involving this data could be very damaging financially and could erode
public confidence, potentially jeopardizing NPRC's ability to achieve its mission.
Additionally, if the breach constitutes a violation of relevant law, NPRC and/or its staff
may be subject to criminal or civil penalties.

Recommendations

1. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to export data for the "record of disclosure file" and follow the approved Records
Disposition Schedule and limit the amount of record requests stored online.

Management Comments

Management concurred with the recommendation.

Password Configuration Weaknesses

A usemame and password were needed to log into the CMRS system however, password
requirements were not in place to protect the confidentiality of passwords and prevent
unauthorized access. This occurred because NPRC officials did not believe password
requirements were needed. NIST SP 800-53 requires information systems to uniquely
identify and authenticate users and NARA Interim Guidance 804-2, requires all
passwords for unclassified systems must be at least 8 characters and include special
characters such as punctuation marks or symbols. Weak passwords increase the risk that
an unauthorized person could gain access to information stored in the system.

User authentication establishes the validity of a user's claimed identity. The most widely
used means of authentication is through the use of passwords. However, passwords are
not conclusive identifiers of specific individuals since they may be guessed, copied,
overheard, or shared. Therefore, additional controls are needed to protect the
confidentiality of passwords. NPRC officials did not implement necessary controls to
protect the confidentiality of CMRS passwords. Specifically:

    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----;

    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----;

    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----;

    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----;


                                           Page 8
                        National Archives and Records Administration
                                                                          OIG Audit Report No. 09-16


    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----; and

    •   ----Redacted pursuant to FOIA Exemption "high" b(2)----.



-------------------------Redacted pursuant to FOIA Exemption "high" b(2)--------------------­



According to NPRC officials, stronger password requirements were not needed because
physical security controls at the facility would prevent an unauthorized user from gaining
access to a computer terminal at NPRC. In addition, a user would need to have a
NARANET account and a Windows domain account in order to gain access to the
system. While physical security controls and the need for a NARANET account provide
additional layers of security, these controls do not protect the confidentiality of the
passwords. ----------------------------------------------~----------------------------------------------
-------------------------Redacted pursuant to FOIA Exemption "high" b(2)--------------------­



Recommendations

2. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to establish and enforce password requirements within CMRS that are appropriate
based on the sensitivity of the information contained in the system and the need to protect
the integrity of the information.

Management Comments

Management concurred with the recommendation.

Audit Response

Although the Assistant Archivist concurred with the recommendation, discussions about
the draft report with management indicated the technical solution would not be
implemented until----Redacted pursuant to FOIA Exemption "high" b(2)----. We do not
agree that implementation should be delayed until ----Redacted pursuant to FOIA
Exemption "high" b(2)----. The current CMRS system has the capabilities to enforce
password requirements therefore, ----Redacted pursuant to FOIA Exemption "high" b(2)­
--- results in unnecessary risk to the confidentiality of data in the system.

Least Privilege

Over 50 Data Entry Clerks were given full access to the entire CMRS database and over
250 Core Technicians responding to record requests have the ability to view all requests
in the database. This occurred because controls were not in place to enforce the most
restrictive set of rights and privileges needed by users in performing their jobs. As a

                                              Page 9
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


result, information in the system was not protected against unauthorized access,
modification, loss, or disclosure.

Data Entry Clerks are responsible for entering data from record requests received by mail
into the CMRS system and then scanning a copy of the request which is saved as an
attachment to the record request. In February 2009 there were 39 Data Entry Clerks as
well as an additional 18 employees that perform other duties at NPRC but work overtime
in the mailroom as Data Entry Clerks. Data Entry Clerks were granted access to the
entire database of record requests and had the ability to edit all record requests.

According to an NPRC official, data entry clerks need access to the all service requests
because occasionally, are-scan of the original record request is needed. In those
instances, a re-scan notice is received from the mailroom supervisor and the assigned data
entry clerk is to retrieve the original service request from storage and re-scan the request.
The data entry clerk performing the re-scan is not always the original clerk who entered
the data. The ability of data entry clerks to edit all requests increases the risk that a data
entry clerk could intentionally or unintentionally delete or modify any record requests.
The intentional or unintentional deletion or modification of incoming record requests
could severely impact operations at the NPRC.

Core Technicians are responsible for reviewing the requests assigned to them,
determining the information that should be provided and then responding to the request.
While Core Technicians are only able to edit those requests assigned to them, the ability
of more than 250 core technicians to view sensitive PH information in all requests stored
in the system increases the risk of an inappropriate disclosure of data.

Recommendations

3. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to establish controls to restrict users to only those rights and views needed to
perform their job.

Management Comments

Management concurred with the intent of the recommendation but believed that
appropriate controls consistent with business needs have been in place since 2002.
Therefore, the Assistant Archivist does not anticipate making any changes and will
accept this business risk.

Audit Response

Although the Assistant Archivist concurred with the intent ofthe recommendation, we do
not agree with their plan to not take action to limit the set of rights and views of CMRS
users. NARA can safeguard the confidentiality of PH by ensuring that users who must
access records containing PH only have access to the minimum amount of PH data, along
with those privileges (i.e. read, write, execute) that are necessary to perform their duties.



                                          Page 10
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


Review of System User Accounts

We identified several user IDs no longer in use that had not been removed from the
system. This occurred because periodic reviews of the user ID's were not adequate to
detect user accounts no longer needed. According to NIST SP 800-53, information
system accounts should be reviewed at least annually. If user IDs no longer in use are not
removed promptly, information in the system is at a greater risk of unauthorized
disclosure.

In a review ofCMRS user accounts we identified seven generic user ID's including four
with administrative access. We requested additional information from NPRC as to what
the accounts were used for. We also identified four NARA IT employees who had user
accounts but no longer required access to the system. One of the four employees retired
from NARA in January 2008 and returned to NARA as a contractor in February 2008 but
their user ID was not removed even though access to CMRS was no longer needed.
According to an NPRC official, a total of eight user ID's were no longer needed and
would be deleted.

According to an NPRC official, they are not able to delete user accounts in CMRS but
they are able to remove the "views" assigned to that person. The CMRS contractor is
responsible for deleting the CMRS database account. According to the NPRC official,
the eight user IDs that were determined to no longer be needed were probably
established when the system was first developed and NPRC officials were not notified
that the user accounts were no longer needed.

Recommendations

4. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to review all application and database users at least annually.

Management Comments

Management concurred with the recommendation.

Controls over Data Extracts Containing Sensitive PH

CMRS users were not restricted from performing extracts of the database which could
contain sensitive PH and ----Redacted pursuant to FOIA Exemption "high" b(2)----. In
addition, the creation of computer-readable extracts from CMRS containing PH ---­
Redacted pursuant to FOIA Exemption "high" b(2)----. This occurred because 1) ---­
Redacted pursuant to FOIA Exemption "high" b(2)----; 2) ----Redacted pursuant to FOIA
Exemption "high" b(2)----; and 3) ----Redacted pursuant to FOIA Exemption "high"
b(2)----. OMB Memorandum 06-16 required ----------------------------------------------------­
-----------------------Redacted pursuant to FOIA Exemption "high" b(2)----------------------­
--------------------- Without ----Redacted pursuant to FOIA Exemption "high" b(2)----,
veteran's data is at an increased risk of disclosure.


                                          Page 11
                        National Archives and Records Administration
                                                                          OIG Audit Report No. 09-16


A computer-readable data extract from a database involves retrieving data from a
database through a query and saving the data into a separate computer-readable entity
such as another database, a spreadsheet, or a text file. According to an NPRC official,
every CMRS user has the ability to perform a query of information in the CMRS
database, which includes sensitive PII. -----------------------------------------------------------­
--------------------Redacted pursuant to FOIA Exemption "high" b(2)----.

According to a CMRS official, they were aware of only two extracts of the CMRS
database where information was queried and then saved to a CD. The CMRS official
stated that these extracts were provided to the Marine Corps in July 2008 and January
2009. The extracts were logged by the CMRS official using email however, the official
was only able to provide emails relating to the second data extract due to the loss of their
email archives. Therefore, email should not be used as a means of tracking data extracts.


---------------------Redacted pursuant to FOIA Exemption "high" b(2)------------------------­



Recommendations

5. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to limit users' ability to perform extracts of the database containing sensitive
information or remove access to CD burners and thumb drives.

Management Comments

Management concurred with the intent ofthe recommendation stating system
stakeholders are reviewing options for a technical and non-technical solution.

6. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to ----------------------------------------------------------------------------------------------­
---------------------Redacted pursuant to FOIA Exemption "high" b(2)----.

Management Comments

Management concurred with the intent of the recommendation stating that they will
review options for a solution that will be tied to the technical refresh. The solution will
take into consideration technical feasibility, cost, and performance implications.

Protection of Data Stored on Mobile Devices

CMRS backup tapes containing sensitive information were not encrypted before they
were sent to an offsite storage facility or shipped to NPRC. This occurred because
NARA did not have an encrypted file system. OMB 06-16 requires agencies to encrypt
all data on mobile devices which carry agency data unless the data is determined to be


                                             Page 12
                           National Archives and Records Administration
                                                                            OIG Audit Report No. 09-16


non-sensItIve. If sensitive data is not encrypted, NARA faces an increased risk that the
information could be disclosed to unauthorized individuals if the tapes are lost or stolen.

The intent of encrypting mobile devices is to protect sensitive information when it is
removed from the agency's secured physical perimeter. According to a NARA Privacy
Official, encryption of mobile devices includes backup tapes since the tapes are removed
from the facility. Weekly full backups of the CMRS system are made and then sent to an
offsite storage facility. In addition, backup tapes of closed record requests are shipped
periodically to NPRC in St. Louis for storage. None of the backup tapes were encrypted.

According to an NH official, NARA is in the process of obtaining an encrypted file
system. Until backup tapes are encrypted, sensitive data on the backup tapes are
vulnerable to loss or theft while in transit to the offsite storage facility and to NPRC.

Recommendations

7. The Assistant Archivist for Information Services should encrypt backup tapes
containing PH as required by OMB Memorandum 06-16.

Management Comments

Management concurred with the intent of the recommendation stating controls related to
protecting PH with encryption are covered in NARA Directive 1608.9 and possible
solutions will be considered as part of the technical refresh.

Encryption Used for Remote Access to the CMRS System

CMRS contractors use NARA's Virtual Private Network (VPN) to remotely access the
system servers and their workstations. However, weaknesses in NARA's VPN results in
risks to the confidentiality of the information accessed remotely. This occurred because­
---------------------Redacted pursuant to FOIA Exemption "high" b(2)------------------------­
-------------------------------------------------------------------. Without secure remote access,
information transmitted may be disclosed to unauthorized parties.

A VPN is a virtual network built on top of existing physical networks that can provide a
secure communications mechanism for data. According to NIST, VPNs are used most
often to protect communications carried over public networks such as the Internet. One
way organizations can protect the confidentiality of transmitted PH is to encrypt the
communications. Any information that will cross over the VPN connection that is not to
be seen by non-VPN users should be encrypted to provide confidentiality protection for
that information.

CMRS contractors use NARA's VPN to remotely access the system servers and their
workstations. According to the contractor, remote access is needed to perform routine
tasks and respond to other issues after hours. However, weaknesses in NARA's VPN
results in risks to the confidentiality ofthe information accessed remotely. Specifically,
the ------------------------------------------------------------------------------------------------------­
--------------------Redacted pursuant to FOIA Exemption "high" b(2)-------------------------­

                                              Page 13
                            National Archives and Records Administration
                                                                            OIG Audit Report No. 09-16




Another risk to the confidentiality of information transmitted over the VPN connection is
that CMRS contractors are ----Redacted pursuant to FOIA Exemption "high" b(2) ____ 3 --­
___________________________ .4 Allowing -redacted- increases the risk of disclosure of data in

CMRS because it allows ----Redacted pursuant to FOIA Exemption "high" b(2)----. ----­
-------------------Redacted pursuant to FOIA Exemption "high" b(2)--------------------------­

----------------------. According to the CMRS contractors, they could use a more secure
protocol to access the CMRS servers however, the protocol would have to be installed on
every server. ---------------------------Redacted pursuant to FOIA Exemption "high" b(2)-­


CMRS contractors use the free version ---redacted--- to access the servers from their
desktop computers at NARA and to access their workstations when working remotely.
The contractor was aware of the security concerns involved ----Redacted pursuant to
FOIA Exemption "high" b(2)---- but stated its use was approved by the Office of
Information Services (NH). According to the contractor, NH performed security scans on
the server configurations in 2004 and did not disallow its use therefore, they continue to
use it. According to ----------------------Redacted pursuant to FOIA Exemption "high"
b(2)------------------ is unencrypted and anything typed into the viewer passes "in the
clear" to the server. While the free edition may be suitable for use within NARANET or
with a secure VPN, it should not be used in conjunction with NARA's VPN to access
sensitive information contained in the CMRS system. CMRS officials should either -----­
-----Redacted pursuant to FOIA Exemption "high" b(2)------------- to ensure information
transmitted remotely is not disclosed to unauthorized parties.

Use of ----Redacted pursuant to FOIA Exemption "high" b(2)---- was recorded as a
weakness on the ----Redacted pursuant to FOIA Exemption "high" b(2)----. The
weakness was listed as "ongoing" with an original scheduled completion date of May 31,
2007. Due to the sensitivity of information contained in the CMRS system, ----Redacted
pursuant to FOIA Exemption "high" b(2)----.

Recommendations

8. The Assistant Archivist for Information Services should use encryption that is FIPS
140-2 certified for the VPN.

9. The Assistant Archivist for Information Services should remove ----Redacted pursuant
to FOIA Exemption "high" b(2)----from the CMRS servers and install a more secure
protocol.




3   ----Redacted pursuant to FOIA Exemption "high" b(2)----.
4   ----Redacted pursuant to FOIA Exemption "high" b(2)----.

                                               Page 14
                             National Archives and Records Administration
                                                                       OIG Audit Report No. 09-16


10. The Assistant Archivist for Infonnation Services should determine whether use of --­
-Redacted pursuant to FOIA Exemption "high" b(2)---- is needed, and if so, upgrade to a
more secure verSIOn.

Management Comments

Management concurred with the recommendations.

Unresolved Server Security Vulnerabilities

The quarterly vulnerability scan of the CMRS servers in February 2009 identified:

   • 	 18 critical confinned vulnerabilities that allow ----Redacted pursuant to FOIA
       Exemption "high" b(2)----. Examples are the ability to -------------------------------­
       ------------------Redacted pursuant to FOIA Exemption "high" b(2)------------------­


   • 	 21 high confinned vulnerabilities that ---------------------------------------------------­
       ---------------Redacted pursuant to FOIA Exemption "high" b(2)----. Examples are
       ---------------Redacted pursuant to FOIA Exemption "high" b(2)---------------------­
       ----------------------------------------------------------------------------------; and

   • 	 107 medium confinned and potential warnings that have the potential of granting
       access or allowing code execution by means of ------------------Redacted pursuant
       to FOIA Exemption "high" b(2)------------------------. Examples are -----------------­
       ---------------------------Redacted pursuant to FOIA Exemption "high" b(2)---------­

The confinned vulnerabilities represent exploitable security problems that compromise
confidentiality, integrity and availability. These vulnerabilities result in security
weaknesses that must be fixed. As of June 2009, action had not been taken to correct
these vulnerabilities. This was because the CIO's office believed the results were not
accurate and because there was difficulty in tracking the IP addresses noted on the reports
to the actual equipment. Delays in investigating these vulnerabilities could severely
impact the confidentiality, integrity and availability ofthe CMRS system.

Recommendation

11. The Assistant Archivist for Infonnation Services should review these vulnerabilities
and detennine whether action is needed.

Management Comments

Management concurred with the recommendation.




                                          Page 15
                        National Archives and Records Administration
                                                                       Draft DIG Audit Report No. 09-16


Verification for Next of Kin Requests

NPRC does not require technicians to perform any verification to confirm that the veteran
is deceased before releasing records to next-of-kin requests. NPRC officials stated
that DoD has not provided any additional funding to cover the cost of making these
verifications, and therefore no changes have been made. The DoD Privacy Office stated
that if the personnel file does not reflect that the member is deceased, the individual
requesting such access should be required to provide reasonable proofthat the member is
deceased. In addition, the SF-180 form instructions state that for next of kin requests, the
requester must provide proof of death. IfNPRC does not perform proper verification,
individuals may be granted unauthorized access to military personnel records.

The SF-180 form is used to request information from military records. Release of the
information is subject to restrictions imposed by the military services consistent with
DoD regulations and the provisions of the Freedom of Information Act and the Privacy
Act of 1974. A veteran's next of kin can only request a record if the veteran is deceased
however, NPRC does not require the requester to submit proofthat the veteran is
deceased. The instructions on the SF-180 5 states that for next of kin requests, the
requesters must provide proof of death, such as a copy of a death certificate, letter from
funeral home or obituary. However, NPRC does not enforce this requirement.
According to the NPRC 2008 Annual Assurance Statement, when responding to requests
from the next of kin of deceased veterans, NPRC accepts the requester's signature as
certification that they are authorized requesters.

The Department of Defense Privacy Office sent a letter to the NPRC Director in
November 2007 regarding the release of records to the next of kin (NOK) when the NOK
reports that a former member is deceased. According to the Defense Privacy Office, it is
essential that both the relationship to the individual and proof of death be established
before providing access and/or releasing the record to the NOK. If the military personnel
file does not reflect the requester as a NOK, then the individual should be required to
provide reasonable proof of his or her identity and relationship to the individual.
Similarly, the Defense Privacy Office states that ifthe personnel file does not reflect that
the member is deceased, the individual requesting such access should be required to
provide reasonable proof that the member is deceased.

The NPRC Director estimated that approximately 15 additional people would need to be
hired to review the NOK requests and obtain the required documentation to verify the
veteran was deceased and establish the relationship of the requester to the veteran. The
cost of this change along with other changes mentioned by the Defense Privacy Office
was estimated to be $8.5 million annually. Therefore, the Director proposed an
alternative solution which he determined would cost significantly less. The alternative
was to require verification of the veteran's death but continue to use the perjury statement
and technician review to establish the NOK relationship. According to the NPRC



5The requirement for requesters to provide proof of death was added in the September 2008 revision of the
SF-180 form.

                                             Page 16
                           National Archives and Records Administration
                                                                           OIG Audit Report No. 09-16


Director, the Defense Privacy Office never responded to his letter and did not fund the
cost of making these verifications therefore, no changes have been made to the process.

The Privacy Act states that agencies are not to disclose of any record to any person or to
another agency without a written request by or with the prior written consent of the
individual to whom the record pertains6• One core Technician interviewed stated that for
NOK requests they would review the social security index or the Department of Veterans
Affairs Beneficiary Identification Records Locator Subsystem (BIRLS) database to verify
whether a veteran was deceased before responding to a NOK request. NPRC should
ensure that the NOK requesting records has the proper documentation in order to prevent
unauthorized access to military personnel records.

Recommendations

12. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to issue policy that requires technicians to verify that the veteran is deceased
before providing military records to a next of kin.

Management Comments

Management concurred with the recommendation.



Additional Safeguards Needed to Protect PH in Paper Form

Although controls were in place to protect military records stored in the stack areas, over
40,000 military records were left out in the office areas overnight and the Facility
Manager was unsure as to how many individuals had a copy of the master key needed to
open these doors. This occurred because keys were not returned when individuals left
and annual key inventories were not conducted. According to NARA 271, NPRC should
have a key control plan to maintain a high level of security at the facility. Specifically, a
Key Control Officer should determine which keys, based on need, to issue to each
employee, and carry out or oversee completion of the required inventories of keys issued
and retained. Without proper key control, NPRC risks unauthorized access to military
records or disclosure of PII.

NARA Directive 1608 states that if staff collect, maintain, or disseminate PH in the
course of performing their duties, they must ensure that the information is properly
protected. During normal business hours, maintain information in areas accessible only
to authorized individuals. After business hours, offices that collect or maintain PH must
be locked. When not in use, paper based records containing PH must be stored in
locked cabinets.



6 The Privacy Act contains twelve conditions on which information could be disclosed without the consent
of the individual. For example, records could be disclosed pursuant to the order of a court of competent
jurisdiction.

                                             Page 17
                           National Archives and Records Administration
                                                                      OIG Audit Report No. 09-16


Staff at NPRC collect, maintain, and disseminate PH in the course of performing their
duties. Therefore, PH is throughout NPRC offices and because of the nature of the
operations, there are substantial amounts of it. On March 26, 2009, there were
approximately 29,000 records in the Record Retrieval Area waiting to the re-filed and
approximately 15,000 records out in the Core Technician areas.

For example, stacks of incoming mail with veteran's record requests were located in the
mailroom. As shown in Figure 2, completed record requests were also kept in the
mailroom, waiting for pickup by the U.S. Postal Service (USPS). Completed requests
received after the USPS pickup would be stored in the mailroom overnight. According to
a mailroom supervisor, the doors to the mailroom are closed and locked when the last
person leaves for the day.




                     Photo Taken by NPRC

                     Figure 2. NPRC Record Request Responses.

Each Core Technician has a cubicle with a desk and a cart (see Figures 3 and 4). The cart
is used to organize the OMPF's ofthe cases they are working on. Core Technicians do
not secure PH located on their desk or cart when they are away from their desk or when
they leave for the day. Instead, the doors to the area were closed and locked.




                                         Page 18
                       National Archives and Records Administration
                                                                              OIG Audit Report No. 09-16




Photo Taken by NPRC                                     Photo Taken by NPRC

Figure 3. Core Technician Desk Cart                      Figure 4. Core Technician Cubicles



In the Records Retrieval Branch there were carts full of military records waiting to be re­
filed (as shown in Figure 5 and 6). The doors into the Record Retrieval Branch were
closed and locked by the last person to leave.




Photo Taken by NPRC

                      Figure 5. OMPFs Returned and Waiting to be Re-filed.




                                               Page 19
                             National Archives and Records Administration
                                                                         OIG Audit Report No. 09-16




Photo Taken by NPRC

                      Figure 6. Staff organizing OMPFs to be re-filed.

Based on the office layout at NPRC, it was not possible for all the records to be stored in
locked cabinets as required by NARA Directive 1608. In addition, an NPRC official
stated that they would not want technicians to be able to lock up records in their desks.

The -redacted-- key opens all the doors to these office areas. For example, a mailroom
employee would be able to unlock the door and obtain access to the Records Retrieval
Branch. The Facility Manager stated he performed a key inventory in 2005 and
estimated there were ----redacted---- keys. However, the key inventory consisted of
sending an email to each of the core managers and asking them to report how many keys
they had issued to their staff therefore, additional master keys may exist. According to
the facility manager, no keys have been turned back in to him since he performed the key
inventory in 2005. The facility manager believed that instead of turning in keys to his
office when staff leave, supervisors keep the key to hand out to the next person.

Physical access controls are designed to protect the organization from unauthorized
access. These controls should limit access to only those individuals authorized by
management. Further, all keys should be accounted for and not left with former
employees or contractors. Without adequate key control, NPRC is vulnerable to physical
access exposures including damage, vandalism or theft of equipment; copying or viewing
of sensitive information; and alteration of sensitive equipment and information. Possible
threats include employees with authorized or unauthorized access who are disgruntled,
threatened by disciplinary action or dismissal, addicted to a substance or gambling,
experiencing financial or emotional problems, or notified of their termination.

NPRC will be moving to a new facility in 2010 however, in the interim, a key control
inventory of the NARA10 key and any other master keys should be conducted.



                                            Page   20
                          National Archives and Records Administration
                                                                      OIG Audit Report No. 09-16


Recommendations

13. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to conduct a key inventory of the -redacted-- key and any other master keys in
use at NPRC to ensure all keys are accounted for.

Management Comments

Management concurred with the recommendation stating that the required key inventory
has been completed.



Paper Recycling

NPRC used contractor-witnessed pulping to dispose of its waste paper containing PII and
did not shred paper prior to pickup by the contractor. This occurred because NPRC did
not have shredders with the capacity to handle the volume of paper with PII being
recycled and because NPRC officials decided to treat paper with PII in the same manner
in which restricted records center holdings are disposed. NARA Directive 1608 requires
staffwho collect, maintain, or disseminate PII in the course of performing their duties,
to properly destroy materials containing PII. As a result, NPRC waste paper containing
PII may be disclosed to unauthorized individuals and due to the sensitivity of information
contained on the paper, could lead to identity theft.

According to NARA Directive 1608, if staff collect, maintain, or disseminate PII in the
course of performing their duties, they must ensure the information is properly protected.
Specifically, NARA staff are to properly destroy materials containing PII by shredding,
burning, deleting or other authorized destruction methods that ensures the data or record
is unreadable or unrecoverable.

NPRC has a recycling contract for disposal of their paper. NPRC decided to enter into
their own contract, separate from GSA, because so much of the paper they recycle has
PII. For example, all record requests received in the mail are recycled. Information that
may be included on the record request form include the veteran's: full name, social
security number (SSN), service number (SN), place of birth, and date of birth. In
addition, the CMRS system prints out Search Request forms (shown in Figure 7 below)
which may include the veteran's name, SSN, SN, place of birth and date of birth. These
papers are placed into large yellow bins to be recycled (see Figure 8 below).




                                         Page 21
                       National Archives and Records Administration
                                                                                             OIG Audit Report No. 09-16




    !'mil}'   Roullt\f
    Sou"", Rou1lruo
    ~I¥:          s.pa-.o..
    S_TjO<:       1"_
    Non.Reg!s1ry Siock;                                         J.2MI'A2S9
    RegiSlly Number:



    ti~g Veteran's NiIIIIe: •            ----l
    SRV9leran's Name:.-                        •
                                r~""
                         SSN:   ,,::..--..J
                         ooa;_                                               S
                         ?OS:
                 SSNISVtt~'                           Core: Core 1 
         E
              SoriiOO Code: AR
         Soriice Nomber.
                                                     Team: Team E 
          P
                                                                             D
    Figure 7. Example of a Search Request                                            Figure 8. Paper Recycle Bin

According to the contract, the method of destruction would be repulping and a
representative of the contractor would witness the loading and sealing of the enclosed van
trailer, which would be sent to a recycling mill in Oklahoma. According to the contract,
once the contractor receives written notification the material has been destroyed through
the process ofre-pulping, a Certificate of Destruction is issued. The contract does not
specify that a representative from the contractor will witness the destruction of the paper,
only the loading and sealing of the truck at NPRC. Although the Performance Work
Statement states that the government has the right to send its representatives into the
offices and plants of the contractor of those facilities utilized by the contractor for
destruction for the purpose of verifying terms of the agreement are met, NPRC officials
have not inspected the re-pulping facility since the issuance of the contract.

An NPRC official stated that some managers have shredders in their offices which they
use for shredding personal and/or sensitive materials, but because so much of the NPRC
office waste includes PH it is handled in the same manner in which the disposal of
restricted records center holdings are handled; witness disposal by pulping in accordance
with NARA 1464 "Destruction of Federal Records in the Custody ofNARA Records
Centers." According to NARA 1464, if the records are restricted, the wastepaper
contractor must be required to pulp, macerate, or shred the records, and their destruction
must be witnessed by either a Federal employee or, if authorized by the agency that
created the records, by a contractor employee.

Recommendations

14. The Assistant Archivist for Regional Records Services should direct the Director,
NPRC, to periodically inspect the recycling mill to ensure requirements ofthe contract
are being met and that the sealed truck is stored in a secure area until the paper can be
recycled.

                                                                Page 22
                                              National Archives and Records Administration
                                                                    OIG Audit Report No. 09-16


Management Comments

Management concurred with the recommendation.




                                       Page 23
                     National Archives and Records Administration
                                                                                       Attachment 1

                   National Archives and Records Administration
                                                                                         8601 Adelphi Road
                                                                        College Park, Maryland 20740-6001


Date;      September 30, 2009

To;        Office of the Inspector General (OIG)

From;      Policy and Planning Staff (NPOL)

Subject:  OIG Draft Report No. 09-16, Draft Audit ofNARA's Processing of Military Personnel
Record Requests (CMRS)

           Thank you for the opportunity to review and comment on this draft audit report. We
           appreciate the efforts of your staff and all parties associated with the audit process. This
           memo contains the combined comments ofNR, NH, and NGC. We concur with the majority
           ofthe 14 recommendations as detailed beloW and we appreciate the auditor's willingness to
           work with the language in the audit and recommendations.

           We concur with recommendations 1,2,4,8,9, 10, 11, 12, and 14, some of which require a
           technical solution. We will include additional information on these in our action plan. We
           also concur with recommendation 13. NR notes that the required key inventory has been
           completed.

           We concur with the intent of recommendation 3. However, appropriate controls consistent
           with NR business needs have been in place since 2002. No changes are anticipated, and
           management will accept this business risk in our action plan.

           We concur with the intent of recommendation 5. There are business reasons for performing
           extracts of data in the system, and controls are covered in NARA 1608, Protection of
           Personally Identifiable Information. System stakeholders are reviewing options for a
           technical and non-technical solution.

           We concur with the intent of the recommendation 6. System stakeholders will review options
           for a solution that will be tied to the technical refresh. The solution will take into
           consideration technical feasibility, cost, and performance implications.

           We concur with the intent of recommendation 7. Controls related to protecting PI! with
           encryption are covered in NARA 1608.9. Possible solutions will be considered as part of the
           technical refresh.

           If you have questions about these comments, please contact Mary Drak at 301-837-1668 or by
           email at mary.drak@nara.gov.


        d~Qska~ 

           SUSAN M. ASHTIANIE
           Director, Policy and Planning Staff



                                  NARA's web site is http://www.archives.gov
